     Department of Homeland Security

     ��������������������������



    FEMA’s Dissemination of Procurement Advice 

        Early in Disaster Response Periods 





OIG-14-46-D                            February 2014

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov

                          February 28, 2014

MEMORANDUM FOR:	             Joseph L. Nimmich
                             Associate Administrator, Response and Recovery
                             Federal Emergency Management Agency


FROM:                        John V. Kelly
                             Assistant Inspector General
                             Office of Emergency Management Oversight

SUBJECT:                     FEMA’s Dissemination of Procurement Advice
                             Early in Disaster Response Periods
                             FEMA Disaster Number 4117-DR-OK
                             Audit Report Number OIG-14-46-D

We are currently auditing FEMA’s initial response to the Oklahoma tornadoes (FEMA
Disaster Number 4117-DR-OK), which occurred May 18 through June 2, 2013. This
memorandum advises you of two issues that require your immediate attention. First,
FEMA should provide training to its employees to ensure they provide complete and
accurate guidance on Federal procurement standards to potential applicants early in the
disaster response period. Second, FEMA should correct the FEMA draft Public Assistance
Program Field Operations Pocket Guide, Appendix D: Kickoff Meeting Checklist to more
accurately and completely describe Federal procurement standards.

Our overall objective is to determine whether FEMA’s response to Oklahoma’s severe
storms and tornadoes was effective and efficient, and to evaluate FEMA’s actions,
resources, and authorities according to Federal regulations and FEMA guidelines in
effect at the time of our fieldwork. Our objective with this report is to determine
whether FEMA accurately disseminated procurement information to potential
applicants during the initial response phase of this disaster. We reviewed Federal
regulations and FEMA guidelines related to procurement procedures; interviewed FEMA
officials; attended programmatic meetings between FEMA and potential applicants;
reviewed audit and field reports from various disasters; and performed other
procedures considered necessary to accomplish our objective. We did not assess the
adequacy of the agency’s internal controls applicable to disseminating procurement
advice because it was not necessary to accomplish our audit objective.

We are conducting this performance audit pursuant to the Inspector General Act of
1978, as amended, and according to generally accepted government auditing
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit
objective.


                                            BACKGROUND

From May 18 to 20, 2013, Oklahoma City, Oklahoma, and surrounding counties
experienced severe storms and tornadoes, including an EF-5 tornado that struck the City
of Moore on May 20, 2013.1 The State of Oklahoma (State) reported 26 fatalities and
more than 387 injuries as a result of these storms.2 On May 20, 2013, the President
declared a major disaster with an incident period beginning on May 18, 2013, and
extending to June 2, 2013.

On May 28, 2013, the Office of Inspector General deployed an Emergency Management
Oversight Team (EMOT) to the Joint Field Office in Oklahoma City, Oklahoma.3 The
EMOT serves as an independent unit for oversight of disaster response and recovery
activities and provides FEMA an additional resource for proactive evaluation to prevent
and detect systemic problems in disaster programs and helps ensure accountability over
Federal funds.


                                         RESULTS OF AUDIT

During our deployment to the Oklahoma City Joint Field Office, we observed instances
where FEMA personnel provided incomplete and, at times, inaccurate information to
Public Assistance applicants regarding Federal procurement standards. Based on our
audit reports and personal observations, similar instances have been occurring for
several years. Thus, we were not surprised when we learned that FEMA officials did not

1
  Based on the Enhanced Fujita Scale (EF Scale), an EF-5 tornado is the most severe with winds speeds in
excess of 200 miles per hour. The EF-5 tornado remained on the ground for 40 minutes tearing a path
1.3 miles wide and 17 miles long and causing massive destruction in the cities of Newcastle and Moore, 

Oklahoma. 

2
  On May 30-31, 2013, another series of severe storms moved across Central Oklahoma, creating eight 

tornadoes; one a 2.6 mile-wide EF-5, the widest ever recorded. Total fatalities rose to 48 with more than 

508 reported injuries.

3
  FEMA establishes Joint Field Offices in or near the disaster-impacted area for use by Federal and State 

staff as the focal point of disaster recovery operations. 

www.oig.dhs.gov                                        2                                       OIG-14-46-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



emphasize contracting compliance training at the Joint Field Office. Contracting
violations significantly increase the risk that contracts for disaster work will result in
ineligible and excessive costs and that open and fair competition will not occur.
Therefore, FEMA should take immediate steps to ensure that its Joint Field Office
personnel provide complete and accurate information on Federal procurement
standards.

Need To Provide Contracting Guidance

Early in the Public Assistance process, complete and accurate contracting guidance is
crucial to ensuring Public Assistance applicants comply with Federal procurement
regulations and FEMA guidelines. FEMA personnel provided applicants incomplete and
inaccurate contracting information during applicant Kickoff Meetings by telling
applicants they needed to follow State law or their own contracting procedures.4
However, this is incomplete information because, for grant recipients other than States,
this is true only if the contracting procedures happen to meet the specific Federal
requirements. In our experience, local governments and private non-profit organizations
typically do not use contracting procedures that mirror Federal requirements.

Federal Regulation 44 CFR 13.36(a) allows States, as grantees, to use their own
procurement procedures. Other grantees and subgrantees may also use their own
procurement procedures, but those procedures must conform to Federal law and
standards stated in 44 CFR 13.36(b) through (i). If a subgrantee is an institution of higher
education, hospital, or other non-profit organization, it must conform to 2 CFR 215.40
through 48.

FEMA Needs To Provide Accurate and Complete Contracting Guidance

FEMA’s draft Public Assistance Program Field Operations Pocket Guide, September 2012,
contributed to the problem because its appendix includes this same incomplete
contracting guidance (see exhibit). FEMA developed the draft pocket guide to help
FEMA staff deliver the Public Assistance program consistently across all FEMA Regions.5
The pocket guide includes Appendix D: Kickoff Meeting Checklist, which serves as a
guide to Public Assistance crew leaders in preparing for kickoff meetings. The checklist,


4
  A Kickoff Meeting is a FEMA-led meeting, scheduled within a week of FEMA’s receipt of the applicant’s
Request for Public Assistance form, to discuss eligibility, documentation, and FEMA and State reporting
requirements.
5
  FEMA headquarters provided on-site training at the Oklahoma City Joint Field Office where Public
Assistance crew leaders received copies of the draft pocket guide.
www.oig.dhs.gov                                        3                                     OIG-14-46-D
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



which states “contract[s] must be procured in accordance with State law or local
procedures” is incomplete because it does not say that those State laws or local
procedures must also conform to Federal law and standards (see Exhibit, Appendix D:
Kickoff Meeting Checklist).

At each of the kickoff meetings we attended, we emphasized to applicants the need for
contracts to comply with Federal procurement requirements to be eligible for Federal
funding. In particular, we emphasized that Federal regulations require them to (1) bid
their contracts competitively; (2) include specific provisions within their contracts; (3)
take affirmative steps to include small-, minority-, and women-owned businesses; and
(4) maintain documentation to support all their claimed costs, including those related to
their procurement process. However, many applicants were not aware of these Federal
procurement requirements or that noncompliance with the requirements could put
their Federal grant funds at risk. This situation strongly indicates that applicants, even
those that previously received Federal Public Assistance grant funds, may not have
received complete or accurate information in the past.

We also observed an instance where FEMA’s disaster field employees provided
inaccurate procurement information to an applicant. FEMA officials requested that we
review an applicant contract that FEMA’s disaster field employees previously reviewed
and found no contracting deficiencies.6 However, the contract was not eligible for FEMA
funding because it did not comply with Federal regulations or FEMA guidelines.
Specifically, the contract did not include federally required contract provisions. FEMA’s
disaster field employees should have identified all the contracting deficiencies and
advised FEMA’s Public Assistance Program staff that the contract was ineligible for
FEMA funding.

FEMA’s dissemination of inaccurate procurement information has been a recurring
problem for several years. For example, during an informational meeting FEMA held in
October 2005, a FEMA Public Assistance Coordinator distributed an instructional
handout to Hurricane Katrina applicants on how they should conduct procurements. The
handout inaccurately informed applicants that they should “contract for disaster
recovery work as you normally contract for services” and “follow the same rules after
the disaster as you did before the disaster.”

In February 2010, we reported that a Hurricane Katrina subgrantee did not comply with
Federal contracting requirements for full and open competition. The subgrantee

6
 We also reviewed a second contract for which we determined FEMA’s field employees had provided
accurate procurement guidance.
www.oig.dhs.gov                                   4                                     OIG-14-46-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



contended and we confirmed that FEMA’s Public Assistance Coordinator approved the
subgrantee’s inappropriate procurement practice of soliciting bids from a list of pre-
approved contractors.7 In December 2010, we reported that a Hurricane Ike subgrantee
did not provide full and open competition in four of its five unit-price and time-and­
material contracts, nor did its contracts contain the required contract provisions or cost
ceilings that Federal procurement standards require. Despite this, a FEMA Technical
Assistance Contractor advised the subgrantee that its contracts were “deemed eligible,
reasonable and reimbursable [by FEMA].”8 Finally, in September 2011, we reported that
FEMA’s advice to a Hurricane Katrina subgrantee that “FEMA procurement policy
requires three bids to obtain reasonable pricing” was not sufficient to comply with
Federal procurement regulations.9

When we informed senior FEMA officials of these problems, they concurred with our
finding stating that “complete and accurate contracting guidance is crucial to ensuring
Public Assistance applicants comply with Federal procurement regulations and FEMA
guidelines.” They also said that “local governments and private non-profits need to
understand that they are obliged to follow not only their own procurement
requirements but also those of 44 CFR Part 13 and 2 CFR Part 215, respectively.”

Recent Audits Identified Over $200 Million in Improper Contracting

In past audits, we questioned a significant amount of Public Assistance grant costs
because of improper contracting. In fiscal years 2010 through 2012, we reported more
than $227 million in contract costs that were ineligible primarily because of improper
contracting. To reduce the likelihood of similar occurrences, it is imperative that FEMA
provides applicants with complete and accurate procurement guidance, especially
during the initial response phase of disasters.10

Contracting practices that do not comply with Federal procurement regulations result in
high-risk contracts that can cost taxpayers millions of dollars in excessive costs and that
often do not provide full and open competition to all qualified bidders, including small

7
  Department of Homeland Security, Office of Inspector General report DD-10-05, Roman Catholic 

Archdiocese of New Orleans, Bidding Process, issued February 5, 2010, in response to Hurricane Katrina. 

8
  Department of Homeland Security, Office of Inspector General report DD-11-05, Chambers County, 

Texas, issued December 13, 2010, in response to Hurricane Ike.

9
  Department of Homeland Security, Office of Inspector General report DD-11-21, FEMA Public Assistance 

Grant Funds Awarded to Jesuit High School, New Orleans, Louisiana, issued September 26, 2011, in 

response to Hurricane Katrina. 

10
   See Department of Homeland Security, Office of Inspector General’s Audit Tips for Managing Disaster­

Related Project Costs, September 2012, at http://www.oig.dhs.gov/assets/Audit_Tips.pdf.

www.oig.dhs.gov                                     5                                       OIG-14-46-D
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



firms and women- and minority-owned businesses. In addition, full and open
competition helps prevent favoritism, collusion, fraud, waste, and abuse.

FEMA and States Jointly Manage Disaster Assistance Programs

As a FEMA grantee, the State is responsible for ensuring that subgrantees are aware of
requirements imposed on them by Federal regulations (44 CFR 13.37(a)(2)). The State is
also responsible for managing the day-to-day operations of grant and subgrant
supported activities to ensure compliance with applicable Federal requirements and the
achievement of performance goals (44 CFR 13.40(a)). Although the State is responsible
for its applicants’ compliance with Federal contracting regulations and guidelines, FEMA
staff members also need to make sure they are not disseminating incomplete or
inaccurate information to applicants. Accordingly, we recommend that FEMA take
immediate steps to ensure that its personnel receive training on Federal procurement
standards and correct deficiencies in its draft pocket guide.


                                  RECOMMENDATIONS

We recommend that FEMA’s Associate Administrator, Response and Recovery:

Recommendation #1: Provide training to FEMA Joint Field Office Public Assistance and
Office of the Chief Counsel staff on Federal procurement standards to ensure FEMA
provides complete and accurate guidance to applicants consistent with 44 CFR 13.36
and 2 CFR 215.40 through 48.

Recommendation #2: Correct the FEMA draft Public Assistance Program Field
Operations Pocket Guide, Appendix D: Kickoff Meeting Checklist to more accurately and
completely describe the Federal contracting standards outlined in 44 CFR Part 13, 2 CFR
Part 215, and FEMA guidelines.


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the issues we identify in this report with FEMA officials during our audit
and provided them a draft report. We discussed our draft report with FEMA officials at
an exit conference on November 21, 2013. FEMA officials generally agreed with our
findings and recommendations. FEMA officials concurred with Recommendation #1, and
stated that the Procurement and Fiscal Law Division of the Office of Chief Counsel will
develop a training curriculum and video-record the training so that it is available within
www.oig.dhs.gov                              6                                  OIG-14-46-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



120 days from the date the final report is issued. FEMA officials also concurred with
Recommendation #2, stating that the Recovery Directorate will complete an update to
the Public Assistance Program Field Operations Pocket Guide in fiscal year 2014 to
address the checklist found in Appendix D. Upon report issuance, we consider
Recommendation #1 open and resolved with a target completion date of 120 days from
the report issuance date, and Recommendation #2 open and resolved with a target
completion date of September 30, 2014. Until FEMA confirms it has completed its
corrective actions, we will consider these recommendations open and resolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; Moises Dugan,
Supervisory Program Analyst; David B. Fox, Auditor-in-Charge, Pat Epperly, Program
Analyst; and Heather Hubbard, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact
Christopher Dodd, Acting Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            7                                 OIG-14-46-D
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security



                                                                            Exhibit

   Draft Public Assistance Program Field Operations Pocket Guide, September 2012
                    Appendix D: Kickoff Meeting Checklist (Page 42)




www.oig.dhs.gov                         8                               OIG-14-46-D
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security



                                                                            Appendix
                               Report Distribution List

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Associate Administrator, Response and Recovery
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Regional Administrator, FEMA Region VI
Federal Coordinating Officer, 4117-DR-OK
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-14-002)
Chief Procurement Officer

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure



www.oig.dhs.gov                           9                                OIG-14-46-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
